la
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHRISTINA V. LE,
Plaintiff-Appellant,
v.
RICHARD V. SPENCER,
Secretary of The Navy,
Defendant-Appellee.

No. 19-55578
D.C. No.
5:18-cv-01564-JGB-SP
Central District of
California, Riverside
ORDER
(Filed Nov. 22, 2019)

Before: BYBEE, IKUTA, and OWENS, Circuit Judges.
Appellant’s motion (Docket Entry No. 13) for re­
consideration of the court’s September, 20, 2019 order
staying briefing pending resolution of the motion for
summary disposition is denied.
A review of the record and the opening brief indi­
cates that the questions raised in this appeal are so
insubstantial as not to require further argument. See
United States v. Hooton, 693 F.2d 857, 858 (9th Cir.
1982) (stating standard).
Accordingly, we grant appellee’s motion (Docket
Entry No. 11) to summarily affirm the district court’s
judgment.
All pending motions are denied as moot.
AFFIRMED.

2a
JS-6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA EASTERN DIVISION
Christina V. Le,

Case No.
EDCV 18-1564-JGB (SPx)

Plaintiff,

JUDGMENT

v.

(Filed Apr. 24, 2019)

Richard V. Spencer
Defendant.

TO ALL PARTIES AND THEIR ATTORNEYS OF
RECORD:
Pursuant to the Order filed concurrent herewith,
IT IS HEREBY ADJUDGED that Plaintiff’s Com­
plaint is dismissed without leave to amend and this ac­
tion is dismissed with prejudice.
Dated: April 24, 2019
Jesus G. Bernal
THE HONORABLE J
JESUS G. BERNAL
United States District Judge

3a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
MEMORANDUM
EDCV 18-1564 JGB
Case No. i(SPx)
Date April 24, 2019
Title Christina V. Le v. Richard V. Spencer
[Present: The jjESUS G. BERNAL, UNITED STATES
honorable
DISTRICT JUDGE
MAYNOR GALVEZ
Deputy Clerk

Not Reported
Court Reporter

Attorney(s) Present
for Plaintiff(s):

Attomey(s) Present
for Defendant(s):

None Present

None Present

Proceedings: Order DISMISSING Plaintiff’s
First Amended Complaint WITH­
OUT Leave to Amend (IN CHAM­
BERS)
On November 19, 2018, Plaintiff filed a First
Amended Complaint. (“FAC,” Dkt. No. 22.) On Febru­
ary 27, 2018, the Court granted Defendant’s motion to
dismiss the FAC and dismissed the FAC in its entirety.
(“Order,” Dkt. No. 37.) The Court granted Plaintiff
leave to amend certain claims, with the provision that
any amended complaint be filed before March 25,2019.
(Id. at 6.) On March 10, 2019, Plaintiff filed a notice of
intent not to file a second amended complaint and re­
quested that final judgment be entered in this action.

4a
(Dkt. No. 41.) As of the date of the entry of this order,
Plaintiff has not filed an amended complaint.
A district court may dismiss an action without
leave to amend when a plaintiff has failed to file an
amended complaint within the allotted time period.
See Am. W. Door & Trim v. Arch Specialty Ins. Co., 2015
WL 13048440, at *1 (C.D. Cal. Apr. 15, 2015)
The Court therefore dismisses this action WITH­
OUT leave to amend. Final judgment will be entered
in this matter following the entry of this order. The
Clerk of Court is directed to close this case.
IT IS SO ORDERED.

5a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
MEMORANDUM
February 27,
EDCV 18-1564 JGB
i
No.
|(SPx)____________
Date -2019
ase
[Title Christina V. Le v. Richard V. Spencer
Present: The 'JESUS G. BERNAL, UNITED STATES
Honorable 'DISTRICT JUDGE
MAYNOR GALVEZ
Deputy Clerk

Not Reported
Court Reporter

Attorney(s) Present
for Plaintiffs):

Attomey(s) Present
for Defendant(s):

None Present

None Present

Proceedings: Order (1) GRANTING in Part and
DENYING in Part Defendant’s
Motion to Dismiss; (2) DISMISS­
ING Plaintiff’s FAC With Leave
to Amend; and (3) VACATING the
March 4, 2019 Hearing (IN
CHAMBERS)
Before the Court is Defendant Richard V. Spen­
cer’s Motion to Dismiss the First Amended Complaint.
(“Motion,” Dkt. No. 25.) The Court determines this
matter is appropriate for resolution without a hearing.
See Fed. R. Civ. P. 78; L.R. 7-15. After considering the
briefs filed in support of, and in opposition to, the Mo­
tion, the Court GRANTS in part and DENIES in part

6a
Defendant’s motion to dismiss, DISMISSES Plaintiff’s
complaint with leave to amend, and VACATES the
March 4, 2019 hearing.

I. BACKGROUND
On July 24, 2018, Plaintiff Christina V. Le filed a
complaint against Defendant Richard V. Spencer, Sec­
retary of the Navy. (“Complaint,” Dkt. No. 1.) Defend­
ant moved to dismiss the Complaint on September 24,
2018. (Dkt. No. 11.) The Court granted Defendant’s mo­
tion on October 30, 2018 and dismissed the Complaint
with leave to amend. (Dkt. No. 19.) Plaintiff then filed
a First Amended Complaint on November 19, 2018.
(“FAC,” Dkt. No 22.) The FAC alleges five causes of ac­
tion: (1) discrimination based on race, national origin,
color, and sex under Title VII of the Civil Rights Act of
1964,42 U.S.C. § 2000e, et seq. (“Title VII”); (2) disabil­
ity discrimination in violation of the American with
Disabilities Act of 1990, 40 U.S.C. § 12101, et seq.: (3)
age discrimination under the Age Discrimination in
Employment Act of 1967, 29 U.S.C. § 612, et seq.: (4)
retaliation under Title VII; and (5) hostile work envi­
ronment under Title VII. Defendant filed the present
Motion on December 3, 2018. (“Motion,” Dkt. No. 25.)
Plaintiff filed her opposition on December 17, 2018.
(“Opposition,” Dkt. No. 27.) Defendant replied on De­
cember 21, 2018. (“Reply,” Dkt. No. 29.)

7a
II. LEGAL STANDARD
Defendant moves to dismiss the Complaint pursu­
ant to Federal Rules of Civil Procedure 8(a) and
12(b)(1). Under Federal Rule of Civil Procedure 8(a), a
complaint must contain “a short and plain statement
of the claim showing that the pleader is entitled to re­
lief.” Although the Federal Rules adopt a flexible plead­
ing policy, a complaint must give fair notice and state
the elements of the claim plainly and succinctly. Jones
v. Community Redev. Agency. 733 F.2d 646, 649 (9th
Cir. 1984). Therefore, a plaintiff must allege with at
least some degree of particularity the overt acts which
the defendants engaged in that support plaintiff’s
claim. Id. Dismissal is appropriate where the com­
plaint fails to meet the requirements of Rule 8. The
propriety of dismissal for failure to comply with Rule 8
does not depend on whether the complaint is wholly
without merit: Rule 8’s requirements “appl[y] to good
claims as well as bad, and [are] a basis for dismissal
independent of Rule 12(b)(6).” McHenry v. Renne. 84
F.3d 1172,1179 (9th Cir. 1996).
A Rule 12(b)(1) motion challenges the court’s sub­
ject matter jurisdiction, without which a federal dis­
trict court cannot adjudicate the case before it. See
Kokkonen v. Guardian Life Ins. Co., 511 U.S. 375
(1994). The party asserting federal subject matter ju­
risdiction bears the burden of proving its existence.
Chandler v. State Farm. Mut. Auto. Ins. Co.. 598 F.3d
1115,1122 (9th Cir. 2010.)

8a
III. DISCUSSION
Le is a 66-year-old Asian-American woman who
worked for the United States Navy as a civilian elec­
tronics engineer for several decades. (FAC *1 4.) This
lawsuit concerns a series of disputes between Plaintiff
and her employer which began in 2008. Defendant now
moves to dismiss with prejudice all claims and allega­
tions against the United States Equal Employment
Opportunity Commission (“EEOC”) and the Office of
Federal Operations (“OFO”) for want of subject matter
jurisdiction under Rule 12(b)(1); to dismiss with preju­
dice all allegations which have not been administra­
tively exhausted; to dismiss with prejudice all
allegations related to breach of settlement agreement
under Rule 12(b)(1); and to dismiss the remainder of
the FAC without prejudice under Rule 8(a). The Court
will consider each argument in turn.
A. Allegations Related to August 3,2010 Settle­
ment Agreement
Plaintiff previously filed suit before this Court on
January 15, 2018 in Le v. Mabus. EDCV 14-103 JGB
(SPx). In that suit, Plaintiff’s First Amended Com­
plaint alleged that Defendant had breached the terms
of their August 3, 2010 EEOC settlement agreement.
(Id.. Dkt. No. 7.) In that settlement agreement, Plain­
tiff agreed to “release the Navy from all claims or de­
mands she may or night have arising out of her
agreement with the Navy occurring prior to the effec­
tive date of this Agreement,” including claims under

9a
Title VII of the Civil Rights Act of 1964, the Age Dis­
crimination in Employment Act, the Rehabilitation
Act, and the Equal Pay Act. (“Settlement Agreement,”
Id-, Dkt. No. 7 at 21.) The Court subsequently granted
Defendant’s unopposed motion to dismiss the First
Amended Complaint. (Id-, Dkt. No. 12.)
Defendant argues that, through the Settlement
Agreement, Plaintiff has waived all claims arising
from Defendant’s conduct prior to August 3,2010. Hav­
ing reviewed the settlement agreement, the Court
agrees. The Court finds that allegations in the FAC re­
lated to conduct arising prior to August 3, 2010 were
explicitly and unambiguously waived by Plaintiff.
These claims are therefore improper except insofar as
they relate to the administrative exhaustion of Plain­
tiff’s claims. See Dazadi, Inc, v. Sport Squad. LLC. No.
2:17-CV-00081-SVW-E, 2017 WL 5635019, at *4 (C.D.
Cal. May 25, 2017) (giving effect to settlement agree­
ment’s unambiguous waiver of claims at motion to dis­
miss stage).
Additionally, Plaintiff alleges that Defendant
breached a provision of the settlement agreement.
(FAC SI 43.) However, the Court lacks jurisdiction over
breaches of EEOC settlement agreements, as Congress
has not waived sovereign immunity over such claims.
Munoz v. Mabus. 630 F.3d 856, 863 (9th Cir. 2010).
Such claims are improper before this Court and must
be dismissed for want of jurisdiction.
The Court therefore GRANTS Defendant’s Motion
and DISMISSES all claims and allegations arising

10a
from Defendant’s conduct which occurred prior to Au­
gust 3, 2010 and all claims arising from Defendant’s
alleged breach of the Settlement Agreement. These
claims and allegations are DISSMISSED WITHOUT
leave to amend.
B. Unexhausted Allegations
Defendant argues that Plaintiff has only ex­
hausted her administrative remedies with regards to
events which she previously raised in her EEOC com­
plaint and subsequent hearing before the EEOC. (Mot.
at 6.) Those issues are summarized in the EEOC Ad­
ministrative Judge’s November 7, 2016 Decision, of
which Defendant requested the Court take judicial no­
tice on September 24, 2018.1 (Dkt. No. 12.) Defendant
moves for this Court to dismiss and strike all claims
which were not previously raised before the EEOC,
including FAC I'll 6-7 and 52. FAC M 6-7 allege
that “cronyism and harassment” in Plaintiff’s work
1 A court may take judicial notice of an adjudicative fact not
subject to “reasonable dispute,” either because it is “generally
known within the territorial jurisdiction of the trial court,” or it
is capable of accurate and ready determination by resort to
sources whose “accuracy cannot reasonably be questioned.” Fed.
R. Evid. 201. A Court may take judicial notice of the existence of
unrelated court documents but will not take notice of such docu­
ments for the truth of the matter asserted therein. See Meiia v.
EMC Mortg. Corn.. 2012 WL 367364, at *6 (C.D. Cal. Feb. 2,
2012); see also Domell v. City of San Mateo. 19 F. Supp. 3d 900,
904 (N.D. Cal. 2013) (taking judicial notice of documents EEOC
initial complaint and related documents). The Court therefore
GRANTS Plaintiff’s request for judicial notice of the EEOC Ad­
ministrate Judge’s decision.

11a
environment as well as the decisions of Plaintiff’s su­
pervisor to move her into a small shared office, to as­
sign her excessive tasks, and to excessively scrutinize
her work, resulted in her “collapse” in 2010. (FAC *1 67.) Though somewhat opaque, FAC 1 52 appears to al­
lege that, in August 22, 2011, James Watson unfairly
denied Plaintiff’s request for reconsideration of her su­
pervisor’s “zero pay raise” decision. (FAC % 52.)
Before bringing a Title VII claim in district court,
a plaintiff must first exhaust her administrative rem­
edies. Vinieratos v. U.S., Dep’t of Air Force Through Al­
dridge. 939 F.2d 762, 767-68 (9th Cir. 1991). However,
district courts also have jurisdiction over any charges
of discrimination that are “like or reasonably related
to” the allegations made before the EEOC, as well as
“charges that are within the scope of an EEOC inves­
tigation that reasonably could be expected to grow out
of the allegations.” Leong v. Potter. 347 F.3d 1117,1122
(9th Cir. 2003) (internal quotation marks and citation
omitted). Additionally, while Title VII and the Rehabil­
itation Act include an administrative exhaustion re­
quirement, the ADEA, EPA, and the ADA do not. See.
Bovd v. U.S. Postal Serv.. 752 F.2d 410, 413 (9th Cir.
1985) (administrative exhaustion required for employ­
ment-related claims under the Rehabilitation Act);
Bartelt v. Berlitz School of Languages of America. Inc..
698 F.2d 1003, 1007 (9th Cir. 1985) (no administrative
exhaustion is required under the EPA); Botosan v. Paul
McNally Realty. 216 F.3d 827, 832 (9th Cir. 2000) (no
exhaustion or notice requirement under the ADA).
While there is no exhaustion requirement under the

12a
ADEA, a Plaintiff must “give the EEOC notice of intent
to sue at least 30 days before filing suit,” Bankston v.
White. 345 F.3d 768, 770 (9th Cir. 2003).
The Court finds that dismissal of FAC claims aris­
ing from the allegations in FAC M 6-7 and f 52 is not
appropriate. While Plaintiff’s FAC is not a model of
clarity, the Court is not convinced that the allegations
of overwork and transfer to a new office, resulting in
Plaintiff’s collapse, are cognizable only as claims
brought under the Title VII and the Rehabilitation Act.
Though the clarity of Plaintiff’s FAC will be discussed
in greater detail below, Section III(D), infra. Defendant
does not argue that these allegations are inadequate
to support claims under the ADA, EPA, or ADEA, and
the Court cannot rule this out as a matter of law based
on the briefing before it. Additionally, given that Plain­
tiff raised her supervisor’s August 22, 2011 “zero pay
raise” decision in her EEOC complaint, the Court finds
that allegations in FAC 1 52 related to this “zero pay
raise” decision are reasonably related to her EEOC
complaint and therefore not barred for failure to ex­
haust. Accordingly, the Court DENIES Defendant’s
Motion to dismiss and strike FAC
6-7 and f 52.
C. Allegations Against EEOC and OFO
Though Plaintiff has only named the Secretary of
the Navy as a defendant in this case, the FAC alleges
that the EEOC Administrative Judge Dennis Carter
and the OFO violated the Due Process and Equal
Protection clauses of the Fifth and Fourteenth

13a
Amendments by making legal and factual errors in
reaching a decision in her proceedings and appeal, in­
cluding “failfing] to follow the law and binding prece­
dent fully and fairly ...” (FAC ff 102-106, 108-118.)
Defendants argue that the Court has no jurisdiction
over challenges made by an employee of a third party
and that these claims should therefore be dismissed
under Federal Rule of Civil Procedure 12(b)(1). Defend­
ant previously moved to dismiss these claims and alle­
gations in his motion to dismiss the Complaint, (Dkt.
11.), but the Court denied these portions of Defend­
ant’s motion as moot in light of its decision to dismiss
all claims without prejudice under Rule 8(a). (Dkt. No.
19.) The Court now GRANTS Defendant’s Motion.
Though Plaintiff may seek district court review of
claims which she exhausted before the EEOC, the
Court lacks subject matter jurisdiction over constitu­
tional claims against the EEOC brought by individuals
who are not employees of the EEOC. Ward v. EEOC.
719 F.2d 311, 313 (9th Cir. 1983).
Additionally, since Title VII is the exclusive mech­
anism for redress of federal employment discrimina­
tion, she may not properly bring separate claims that
employment discrimination against her resulted in vi­
olations of her Constitutional rights. Brown v. General
Servs. Admin.. 425 U.S. 820, 832 (1976). Further, the
Court can find no precedent for the proposition that an
employee may bring a claim against her employer for
violations of the Fourth Amendment for seizure of a
laptop provided to the employee as part of her employ­
ment, as alleged in FAC M 15, 93, and 94.

14a
Accordingly, the Court GRANTS Defendant’s Mo­
tion and DISMISSES Plaintiff’s claims against the
EEOC and OFO for violation of the Equal Protection
and Due Process Clauses of the Fifth and Fourteenth
Amendments, as well as Plaintiff’s claim against De­
fendant for violation of her Fourth Amendment rights,
WITHOUT leave to amend.
D. Dismissal under Rule 8(a)
Defendant requests that the Court dismiss the re­
mainder of the FAC under Federal Rule of Civil Proce­
dure 8(a). Rule 8(a) requires that the complaint
contain “a short and plain statement of the claim show­
ing that the pleader is entitled to relief.” The complaint
must be sufficient to give fair notice and state the ele­
ments of the complaint “plainly and succinctly.” Jones.
733 F.2d at 649. Specifically, Defendant argues that
Plaintiff’s allegations lacks organization, is overlong
and confusing, and contains “prolix evidentiary aver­
ments” arising during Plaintiff’s protracted litigation
of her complaints before the EEOC as well as extensive
arguments as to why Plaintiff believes she is entitled
to relief. (Mot. at 7-8.)
The Court construes the pro se Plaintiff’s plead­
ings liberally and affords her the benefit of the doubt
and notes that Plaintiff has taken steps towards clar­
ity in her FAC. Hebbe v. Pliler. 627 F.3d 338, 341 (9th
Cir. 2010) (courts are to interpret the pleadings of pro
se litigants liberally and afford them the benefit of any
doubt). However, the FAC remains sodden with details

15a
and arguments which are irrelevant to Plaintiff’s legal
claims and is presented in a manner which makes it
difficult to discern the factual basis of Plaintiff’s
causes of action. The result is that the FAC still fails to
give Defendant fair notice regarding the nature of the
claims against him. Accordingly, the Court GRANTS
Defendant’s Motion to dismiss the remainder of the
Complaint WITH leave to amend. Plaintiff may file an
amended complaint, if any, before March 11, 2019. If
Plaintiff chooses to filed a further amended complaint,
the Court strongly suggests that Plaintiff eliminate ir­
relevant details, present the factual allegations that
serve as the basis of her complaint in chronological or­
der, and clearly indicate which facts serve as the basis
of each of her causes of action.
IV. CONCLUSION
For the above reasons, the Court GRANTS De­
fendant’s Motion to dismiss claims arising from alleged
breaches of the August 3, 2010 settlement agreement,
claims against the EEOC and OFO for violation of the
Equal Protection and Due Process Clauses of the Fifth
and Fourteenth Amendments, and Plaintiff’s claim
against Defendant for violation of her Fourth Amend­
ment rights. These claims are DISMISSED WITHOUT
leave to amend. The Court DENIES Defendant’s Mo­
tion to dismiss FAC M 6-7 and 52 for lack of exhaus­
tion. The Court GRANTS Defendant’s Motion to
dismiss all claims under Rule 8(a) and DISMISSES

16a
them WITH leave to amend. Any amended complaint
must be filed before March 25,2019. The March 4,2019
hearing is VACATED.
IT IS SO ORDERED.

17a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHRISTINA V. LE,
Plaintiff-Appellant,
v.
JAMES MCPHERSON,
Acting Secretary of The Navy,
Defendant-Appellee.

No. 19-55578
D.C. No.
5:18-cv-01564-JGB-SP
Central District of
California, Riverside
ORDER
(Filed Apr. 13, 2020)

Before: BYBEE, IKUTA, and OWENS, Circuit Judges.
The motion for reconsideration en banc (Docket
Entry No. 19) is denied on behalf of the court. See 9th
Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
The motion for an extension of time to file a motion
for reconsideration (Docket Entry No. 18) is denied as
moot.
No further filings will be entertained in this closed
case.

